  U.S. DEPARTMENT OF COMMERCE
            Office of Inspector General




             PUBLIC
            RELEASE


 PATENT AND TRADEMARK OFFICE

New Cost Accounting System Appropriately
       Considers Reporting Requirements

        Audit Report No. FSD-10782-8-0001 / June 1998




     Office of Audits, Financial Statements Audit Division
June 30, 1998


MEMORANDUM FOR:                Edward R. Kazenske
                               Acting Associate Commissioner and
                                Chief Financial Officer
                               Patent and Trademark Office



FROM:                          Johnnie E. Frazier
                               Acting Inspector General

SUBJECT:                       PTO’s New Cost Accounting System
                               Appropriately Considers Reporting Requirements
                               Audit Report No. FSD-10782-8-0001


In conjunction with the Patent and Trademark Office’s (PTO) cost management initiative, the
Office of Inspector General has conducted an audit of the methodologies used by PTO’s
contractor to develop PTO’s cost accounting system. We have made certain observations and
recommendations based on our review of the contractor’s final report, dated February 2, 1998;
supporting documentation; and discussions with PTO and contractor personnel.

The issues and recommendations have been reviewed with your staff during the audit, and we
have incorporated their comments, as appropriate. Based on our mutual agreement, we are
issuing this report as final.

As required by DAO 213-5, please provide an audit action plan within 60 days of the date of this
memorandum. If you have any questions regarding the contents of this report, please contact
George E. Ross, Assistant Inspector General for Auditing, on (202) 482-1934.

We appreciate the cooperation and courtesies extended to us by your staff, as well as the
contractor personnel, during the audit.

BACKGROUND

PTO provides patent and trademark protection to inventors and businesses for their inventions
and corporate and product identifications. It examines applications and grants patents on
inventions, publishes and disseminates patent information, maintains search files of U.S. and
foreign patents for public use, and supplies copies of patents and official records to the public. It
performs similar functions for trademarks.
Unlike most government agencies, PTO is funded entirely by user fees, charging set fees for the
aforementioned services that are provided to the public. Most of these fees are set by statute and
may be increased only through changes in the Consumer Price Index or by congressional
approval.

In order to establish fees sufficient to cover the full costs of PTO’s operations, as well as be in
compliance with the Federal Financial Management Improvement Act of 1996 (FFMIA), PTO
implemented a cost accounting system. FFMIA requires an entity to be in compliance with all
standards issued by the Federal Accounting Standards Advisory Board (FASAB). FASAB issued
the Statement of Federal Financial Accounting Standards (SFFAS) No. 4, Managerial Cost
Accounting Standards, effective October 1, 1997, which requires Federal agencies, such as PTO,
to accumulate costs through the use of either cost accounting systems or cost finding techniques.

Specifically, SFFAS No. 4 requires management to:

       1.      Define and establish responsibility segments. Managerial cost accounting should
               be performed to measure and report the costs of each segment’s outputs. Special
               cost studies, if necessary, should be performed to determine the costs of outputs.

       2.      Report full costs of outputs in general purpose financial reports. The full cost of
               an output produced by a responsibility segment is the sum of (a) the costs of
               resources consumed by the segment that directly or indirectly contribute to the
               output, and (b) the costs of identifiable supporting services provided by other
               responsibility segments within an agency and other reporting entities.

       3.      Incorporate the full cost of goods and services that it receives from other entities.
               The entity providing the goods or services has the responsibility to provide the
               receiving entity with information on the full cost of such goods or services
               through billing or other advice.

PURPOSE AND SCOPE OF AUDIT

The OIG was requested to perform a review of PTO’s activity-based cost accounting system.
This audit was performed as a separate task from the annual audit of PTO’s financial statements.
Our fieldwork was conducted in accordance with generally accepted government auditing
standards. As a limited scope review, we did not evaluate internal controls, test compliance with
significant laws and regulations, or evaluate controls over computer generated data. The limited
scope review was performed under the authority of the Inspector General Act of 1978, as




                                              Page 2
amended, and Department Organization Order 10-13, dated May 22, 1980. The scope of our
work entailed the following:

       •       Determining whether the activity-based cost methodology is appropriately
               applied;

       •       Assessing the appropriateness of the defined responsibility segments;

       •       Determining the appropriateness of PTO’s allocation patterns;

       •       Assessing the sufficiency of PTO’s reconciliation between its inputs and the
               output (e.g., whether total resources equal total activities equal total cost objects);

       •       Determining if the data is supported by an appropriate source; and

       •       Determining the sufficiency of the PTO cost accounting system to meet minimum
               federal cost accounting reporting requirements.

CURRENT STATUS OF PTO’S EFFORTS

In 1996, PTO hired a contractor to perform an agency-wide cost management initiative. The
objective of this initiative was to implement an activity-based cost accounting system throughout
PTO. Through this process, models were developed for the three business lines -- Patents,
Trademarks, and Information Dissemination -- as well as the In-Support-Of or corporate
organizations. Cost objects, or products, were identified for each model, which included the total
cost of servicing clients and producing products.

The cost accounting system was used to provide expenses by program in the Supplemental
Information section of PTO’s fiscal year 1997 financial statements. Although this information
was not audited, it was reconciled to the total expenses reported in the audited Statement of
Operations and Changes in Net Position. Since that time, modifications have been made to the
model to incorporate any organizational changes as well as changes in resource and activity
drivers and activities. These modifications enhance the accuracy of the financial data, and
provide management with the ability to make key decisions relating to setting fees, recovering
full costs, and improving customer satisfaction. Data from the cost accounting system will be
used to create the fiscal year 1998 financial statements.

ISSUES OF CONCERN

We recognize the significant effort that PTO has undertaken in the development and
implementation of its cost accounting system. We also believe PTO has taken the necessary
steps to begin effectively identifying and managing costs related to its specific business lines. As



                                               Page 3
a result of our review, we identified the following areas for improvement that should be
addressed by PTO management to enhance the accuracy and reliability of PTO’s financial data:

       •      Program codes. Program codes are used by PTO employees to identify specific
              tasks completed. These program codes were not originally designed to assign
              costs to specific products, therefore it is necessary to map program codes to
              specific activities. The mapping process aligns costs residing in the program
              codes to the activities that make up the cost objects, or products. This process is
              also referred to as direct cost tracing. With the development of new program
              codes, and the modification of existing program codes, it is necessary to closely
              monitor these program codes to ensure they meet the objective of modifying or
              adding the code (i.e., the program codes can be directly traced to an activity). It is
              also important that all employees are properly trained on the implementation of
              any program code changes.

              SFFAS No. 4 states, “direct cost tracing applies to specific resources that are
              dedicated to particular outputs, and this method often minimizes distortion and
              ensures accuracy in cost assignments. Direct tracing should only be applied to
              items that account for a substantial portion of the cost of an output.”

       •      Time Reporting. PTO must rely on its employees to accurately report their time.
              Currently there are limited controls in place to prevent or detect inaccurate
              reporting of time. For example, an employee may incorrectly input time related to
              Project A when in fact the time related to Project B. These types of inaccuracies
              could be minimized through a formal review process by supervisors. If proper
              controls surrounding the time reporting process are not implemented, the data
              used in the cost model may be inaccurate and lead to inadequate pricing of
              products. These controls should be clearly documented and monitored to ensure
              they are operating effectively.

              OMB Circular No. A-123, Management Accountability and Control, states
              “transactions should be promptly recorded, properly classified and accounted for
              in order to prepare timely accounts and reliable financial and other reports. The
              documentation for transactions, management controls, and other significant events
              must be clear and readily available for examination.”

       •      Documented Procedures. Specific policies and procedures surrounding the newly
              implemented cost system were not documented in a manual, handbook, or
              guidebook. Although the software used, HyperABC, is documented in a manual,
              the manual does not incorporate the procedures necessary to prepare and input
              data unique to PTO into HyperABC. Although the deliverables prepared by the
              contractor outline the processes, detailed information is not available to guide
              PTO personnel to effectively utilize the cost system.


                                             Page 4
              Specifically, SFFAS No. 4 states, “All managerial cost accounting activities,
              processes, and procedures should be documented by a manual, handbook, or
              guidebook of applicable accounting operations. This reference should outline the
              applicable activities, provide instructions for procedures and practices to be
              followed, list the cost accounts and subsidiary accounts related to the standard
              general ledger, and contain examples of forms and other documents used.”

       •      Integrated Interfaces. Under the current implementation, the cost accounting
              system is not integrated with financial and non-financial systems, such as the
              Federal Financial System (FFS). Information from external systems must be
              modified and entered into HyperABC manually. Though it is expected that the
              data interfaces will eventually be automated, this is not anticipated to occur before
              the end of the current fiscal year.

              In accordance with the Joint Financial Management Improvement Program’s
              System Requirements for Managerial Cost Accounting, “managerial cost
              accounting systems should be fully integrated with other agency systems, that is,
              designed to eliminate unnecessary duplication of transaction entry and share data
              elements without rekeying or reformatting.”

       •      Data Presentation. We reviewed PTO’s draft financial statements for the six
              months ended March 31, 1998, to determine the presentation of the Consolidating
              Statement of Net Cost, which is supported by the data provided by PTO’s cost
              accounting system. We noted that the presentation of programs is inconsistent
              with the Department’s Preliminary Guidance for FY1998 Financial Statements,
              dated May 8, 1998. Although we recognize that the draft financial statements
              were prepared prior to receiving this guidance, PTO should ensure that the
              Consolidating Statement of Net Cost links the major programs and activities to
              PTO’s goals and objectives identified in the Department’s Strategic Plan.

              The Department of Commerce Preliminary Guidance also states that “the major
              programs and activities list on the Statement of Net Cost should link directly to
              the entity’s goals and objectives in the Department’s Strategic Plan.”

RECOMMENDATIONS

We recommend that the Acting Associate Commissioner and Chief Financial Officer ensures
that:

1.     Newly designed program codes are properly mapped to activities to facilitate direct input
       into the cost system.



                                             Page 5
2.   Proper controls (i.e., preventive and detective) are in place and monitored regularly to
     validate the integrity of the time and attendance data.

3.   The procedures surrounding the implementation and use of the cost accounting system
     (HyperABC) are adequately documented.

4.   The cost accounting system is in compliance with the Joint Financial Management
     Improvement Program’s System Requirements for Managerial Cost Accounting.
     Specifically, the system should be fully integrated with other agency systems to allow
     information to be drawn directly from other financial/non-financial systems.

5.   PTO’s Consolidating Statement of Net Cost is prepared in accordance with the guidance
     issued by the Department by linking the major programs and activities to PTO’s goals and
     objectives identified in the Department’s Strategic Plan.




                                           Page 6
